<html>
<title> - STATUS OF THE COMPLETION OF THE NATIONAL MUSEUM OF THE AMERICAN INDIAN</title>
<body><pre>[Senate Hearing 108-421]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-421

 STATUS OF THE COMPLETION OF THE NATIONAL MUSEUM OF THE AMERICAN INDIAN

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

OVERSIGHT HEARING ON STATUS OF THE COMPLETION OF THE NATIONAL MUSEUM OF 
                          THE AMERICAN INDIAN

                               __________

                             MARCH 3, 2004
                             WASHINGTON, DC


92-458              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     2
    Johnson, Jackie, executive director, National Congress of 
      American Indians...........................................     4
    West, Rick, director, National Museum of the American Indian.     3

                                Appendix

Prepared statements:
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................    11
    Johnson, Jackie..............................................    11
    West, Rick...................................................    12

 
                    STATUS OF THE COMPLETION OF THE
                    NATIONAL MUSEUM OF THE AMERICAN
                                 INDIAN

                              ----------                              


                        WEDNESDAY, MARCH 3, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 10:15 
a.m. in room 485, Senate Russell Building, Hon. Ben Nighthorse 
Campbell (chairman of the committee) presiding.
    Present: Senators Campbell, Inouye, and Murkowski.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. We will now turn to the oversight hearing on 
the status of the National Museum of the American Indian, which 
will be part of our Nation's Smithsonian Institutions. This 
morning, the committee will hear from Rick West, who over the 
past 14 years has done a magnificent job, in my opinion, as the 
first director of this museum; and Jackie Johnson, executive 
director of the National Congress of American Indians.
    It is my understanding that the NCAI is working with the 
museum on its celebrations surrounding the September opening of 
the museum. We will be looking forward to hearing of the events 
that are scheduled, too.
    While in the House, I had the honor of working on this 
bill. Senator Inouye was the Senate sponsor, and virtually 
everyone knows that without his support and help, there simply 
would not be a big beautiful building out there on the Mall. It 
would still be just a flat piece of grass. I was on the House 
side at that time and was given the honor to carry it on the 
House side, so we have been colleagues in all of the years that 
have passed, not only in getting it built, but raising the 
money and doing all the things that have to be done to make 
sure that that is going to actually open on time.
    So on September 21, the NMAI will open its doors in a week-
long celebration leading millions of visitors to the location 
on the National Mall. This beautiful building will include 
800,000 objects drawn from indigenous cultures spanning the 
entire western hemisphere from the Arctic Circle of North 
America to the Tierra del Fuego on the tip of South America.
    The fiscal year 2005 budget request, while not perfect, 
does include continued funding for the museum and we will hear 
from Rick West about some of the details of the budget this 
morning.
    I know you have some time limitations. I understand, Rick, 
so with that I will just turn to Senator Inouye for his 
comments and we will proceed.
    Senator Inouye. Thank you.
    Mr. Chairman, I have a longer statement. I would like to 
ask permission to have it included in the record.
    The Chairman. Without objection, it will be included in the 
record.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. The journey that has led us here today has 
been a long one. It began 17 years ago in February 1987 when 
this committee held a hearing on a bill that was the precursor 
of the Native American Graves, Protection and Repatriation Act. 
At that hearing, the Secretary of the Smithsonian testified 
that our great national museum was in possession of over 18,500 
human remains of American Indians, Alaska Natives, and Native 
Hawaiians. To say that I was horrified would be an 
understatement.
    That testimony served as the impetus to establish a 
memorial on the National Mall that might serve as a final 
resting place for those remains that could not be identified as 
being associated with a particular tribe, Native community, or 
family and thus returned.
    Not long thereafter, I was invited to tour the Museum of 
the American Indian Heye Foundation in New York. It was there I 
first saw the vast collection of Native art and artifacts 
gathered from Native communities in North, Central, and South 
America, and the idea of establishing not only a memorial, but 
a national museum to honor the contributions of Native peoples 
was born.
    Although, Mr. Chairman, I have to leave to participate in a 
hearing of the Defense Appropriations Committee, I want to take 
this time to join you in commending the director of the 
National Museum, Rick West, for all that he has done to 
shepherd the evolution of this museum from vision to reality. 
On September 21, as you have noted, we will celebrate the 
opening of this museum. I am told that there will be a grand 
procession of Native peoples from all the Americas, proceeding 
from the Washington Monument to the base of the Capitol and 
then to the National Museum, the building that will forever 
stand as a symbol of the magnificence of the Native peoples of 
America, the first Americans.
    It will also remind us that there was a time of deceit and 
destruction and death and massacre. But today, it will be a 
shrine to the future.
    Thank you, Mr. Chairman.
    [Prepared statement of Sen. Inouye appears in appendix.]
    The Chairman. Thank you for your eloquent statement, 
Senator Inouye.
    Rick, why don't you go ahead and proceed please.

   STATEMENT OF RICK WEST, DIRECTOR, NATIONAL MUSEUM OF THE 
                        AMERICAN INDIAN

    Mr. West. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Inouye, and members of the committee, 
I am pleased and honored to be with you today to mark an 
occasion of great importance to the Smithsonian Institution's 
National Museum of the American Indian, the tens of millions of 
Native people throughout the Americas, to the citizens of this 
great Nation, namely the day on which after 1 decade of 
planning, development and construction, we will open the Mall 
museum.
    As the founding director of the National Museum of the 
American Indian, I would like to thank the Congress of the 
United States for your unceasing support since 1989 when our 
authorizing legislation was passed. It has been a long journey 
and now it is time to celebrate.
    Over the years, we have opened two facilities, the George 
Gustav Heye Center in New York, the Cultural Resources Center 
in Suitland, MD, and now we will finish with the Mall museum on 
the last available site on this essential corridor of this 
great Nation.
    The Mall building comes from the heart and soul of Indian 
country. In the early stages of design, we conducted numerous 
consultations to learn more about what this building should 
look and feel like. You will experience that when you enter on 
the east side of the building. No person has described better 
what the Smithsonian's 21st century National Museum of the 
American Indian is all about. Tens of thousands of years of 
Native culture, experience, history, and worthiness are 
redeemed by this Native place that sits in the heart of the 
Nation. Through that redemption, the museum creates an 
unprecedented and remarkable opportunity for mutual 
understanding and cultural reconciliation that provides a 
marker for the ages.
    Let me take you on a short tour of what the visitor will 
see as they enter this magnificent structure. The visitor's 
first introduction to this Native place will occur as he or she 
steps onto the very site itself. Far beyond conventional 
notions of landscape architecture, the eco-environment that 
surrounds the building will mark it as a different destination. 
Greeted by ``Grandfather rocks,'' walking beside a tumbling 
stream from the time they enter the site until they reach the 
building entrance on the east, passing by hundreds of 
plantings, carefully selected to evoke that site in all its 
pre-contact natural wonder. Visitors will pass through a 
generous and welcoming portal to the building itself.
    Inside and once past the interior welcoming areas, they 
will find themselves in the captivating and perhaps defining 
space of the museum, the Potomac. This atrium which soars some 
five museum stories high, the full height of the building, 
welcomes and even encourages through its ample windows visual 
connections between the building and its environmental 
surround. It is a central gathering space for the building, the 
home for varied public programs of dance, music, other 
performance art and demonstrations that confirm not only the 
deep, rich and varied cultural past of Native peoples of the 
Americas, but also and as important, their cultural 
contemporaneousness as cultural phenomena of the present, and 
not just the past.
    Now I would like to briefly share what we are planning for 
the opening week itself. On the morning of September 21, 2004, 
we will begin an all-Native procession starting at 8 a.m. and 
ending at 12 noon, as thousands of Native peoples, along with 
some of our very best non-Native friends, many of the Native 
people in their resplendent regalia that marks their 
communities, move together in procession down the National 
Mall.
    Beginning at the Smithsonian's key icon, the Castle, to a 
ceremonial place of commemoration and dedication located at the 
foot of the Capitol Building just across the street from the 
museum itself. Following a brief opening ceremony, and I 
personally promise that it will be that, the thousands of well-
wishers and celebrants, Native and non-Native alike, will 
proceed to the museum itself.
    In addition to the procession and the opening, we are 
planning the First Americans Festival on the National Mall for 
an entire week following September 21, 2004 to expand and 
enhance further our visitors' knowledge and views of Native 
America past and present. A memorable combination of music, 
dance, song, theater, symposia, and seminars, the festival will 
sit physically on the National Mall between the Capitol 
Building of the Nation on the east and the Washington Monument 
on the west, surely, a most remarkable and welcoming act of 
cultural sharing by those who were here with those who came. We 
have invited over 150 participants hemispherically represented 
to the festival, so it should be an extremely rich experience 
indeed.
    We expect broad media coverage for opening day. It will be 
webcast on the radio both national and international, as well 
as on PBS. We also plan to include jumbo-trons along the Mall 
as well, so that all of our tens of thousands, if not hundreds 
of thousands of visitors can share in this experience.
    This concludes my statement. Now I would like to introduce 
Jackie Johnson, NCAI executive director, who will talk about 
the unique partnership we will share for the opening of the 
National Museum of the American Indian.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. West appears in appendix.]
    The Chairman. Jackie, will you proceed?

   STATEMENT OF JACKIE JOHNSON, EXECUTIVE DIRECTOR, NATIONAL 
                  CONGRESS OF AMERICAN INDIANS

    Ms. Johnson. Thank you. Good morning, Mr. Chairman, Mr. 
Vice Chairman, and members of the committee. I just would like 
to followup with some of the things that Rick said, but 
clearly, and I have a statement which I know that you will 
enter for the record.
    The Chairman. It will be included in the record.
    Ms. Johnson. I just want to summarize for you, because I am 
very excited about this opening.
    The Chairman. We can tell. You are in a very good mood.
    Ms. Johnson. I am. I am in a really good mood. [Laughter.]
    I am feeling better in the last 2 days. But anyway, I am 
very excited about this opening and what an opportunity this is 
for Native Americans of this country and the Western 
Hemisphere. It is a great opportunity for us and we as tribal 
leaders in this country have gathered. We have recognized that 
this is a tremendous opportunity for us to educate the public 
at large about who we are and who we are today, where we have 
come, and the contributions that we have made to this great 
country.
    We recognize this partnership and being able to work with 
the museum has been a very educational process for all of us. I 
just might even mention that in my years before coming here, I 
got to be part of the design team for the Cultural Resource 
Center. The whole environment of this development was so 
culturally significant and sensitive to the environment of our 
communities, the traditions that are important to us. That kind 
of work as we move forward, I know that the millions of people 
who are touched not just by going to the museum, but 
participating in the development of the museum have learned a 
lot and have grown a lot about our culture and our traditions. 
So I wanted to thank Rick and his team for that.
    NCAI's role is really to be an adviser, to help with 
outreach and information, making sure that everyone has all the 
information that is going to be happening, and encouraging 
folks to get involved early on, make their reservations, and be 
a participant.
    In addition to the Folk Life Festival that they will be 
having in the museum after the procession, NCAI will be 
cosponsoring with the American Indian Society as part of the 
opening a cultural ceremony, which is a social dance where 
tribes can feel very comfortable in addition to the structured 
environment, an open environment so everybody can engage as 
they choose to.
    In addition to that, we are trying to make sure that we do 
the public education with this heightened media attention. So 
we have had some initial conversations with members of your 
staff on the committee on having a number of educational forums 
here on the Hill to deal with a few of the significant issues.
    In addition to that, we will be having at the National 
Press Club on Wednesday and Thursday at noon two forums. The 
first forum is going to be focused on our past, our heritage 
and what do we contribute to the country. The second forum is 
going to be on our contemporary selves and as tribal 
governments, who are we today.
    In addition to that, there are a number of other tribal 
groups who want to sponsor or participate in other events. We 
have asked that day to work through and in conjunction with us 
at NCAI and the museum, so that we can make sure that everybody 
knows about the events that are being planned, and that there 
will not be any significant overlaps that would cause somewhat 
of a scheduling frustration on those pieces.
    I think that most of all, we are looking at this. We have 
been working with the National Geographic and other groups who 
are also going to be highlighting. In fact, National Geographic 
is going to have a special publication that month just on 
Native Americans, and has been working with the museum. We have 
been advising them also on some technical aspects, as well as 
some other public broadcasting systems.
    So that is really what we would like to encourage, is this 
collaborative effort. We would love to work with your 
committee. I think that this would be a prime opportunity to 
have a significant event, even a rally at some point, that 
really promotes the positive benefits of opening the museum, 
and we want to have a positive image of Indian Country, but 
still deal with the reality of our current issues in this 
environment.
    Thank you.
    [Prepared statement of Ms. Johnson appears in appendix.]
    The Chairman. Thank you. Thanks for that very positive 
presentation. Thank you for commending Rick West. He is 
Cheyenne, you know. I thought I might put that in the record. 
[Laughter.]
    Ms. Johnson. I thought there was some relationship.
    The Chairman. I never let a chance go by without pointing 
that out.
    Well, let me ask a couple of questions and I will turn to 
Senator Murkowski. By the way, my new buckskins just came in 
last week.
    Mr. West. Did they? You are a couple of steps ahead of me, 
then, I think. Mine are coming.
    The Chairman. September is going to be hot, but you better 
get yours out there anyway.
    Do you have a round figure like you expect in the first 
year to attend this new museum?
    Mr. West. Yes, Mr. Chairman; the projected figures for 
visitation range between 4 million and 6 million visitors per 
year. Now, actually because of the size of the building, even 
fully loaded, which is to say 16,000 people per day, that 
really computes to about 4 million per year. So we have found 
it necessary to go to a ticketing system for the museum, and 
that will of course be in place when it opens, too. But the 
visitorship will be very high. We sit right next to the most 
visited museum in the world, the National Air and Space Museum, 
and directly across from another of the most visited museums in 
the world, the East Wing of the National Gallery.
    The Chairman. You mentioned the first day there will 
probably be thousands of people there. How are you going to 
determine who gets in that first day, when that huge procession 
is there?
    Mr. West. Well, we have already put information on our 
website, and that information, and let me just be very clear 
about those websites. First of all, the information generally 
about the opening is at www.americanindian.si.edu. As far as 
getting tickets for the opening, we have already indicated 
through the website that they can become available online, and 
that is www.tickets.com.
    The Chairman. That is on a first come, first serve basis?
    Mr. West. It is. And we, of course, are holding back a 
certain number of tickets.
    The Chairman. Yes; will those tickets cost money?
    Mr. West. For the tickets that are actually ordered online, 
there is a small fee. It is not a cost of the ticket itself, it 
is a handling charge. If the tickets are gotten at the museum 
itself, there is no charge. People can also call 1-866-400-6624 
and get tickets through that telephone line also.
    The Chairman. It is my understanding that most of the 
hotels in town have already been booked. Is that your 
understanding, too? Have you heard that?
    Mr. West. The hotels are filling up. As I understand it, 
there is also another major convention that is going to be here 
during that period. That, of course, has compounded the hotel 
issues.
    The Chairman. What was that a convention?
    Mr. West. I think it is the Postal Service.
    Ms. Johnson. Yes; the post office is having their 
convention.
    One of the things we have encouraged the tribes to do, in 
addition to all the folks getting their conference hotels now, 
many of the tribes that I have talked to are looking toward 
outside of just the Washington, DC area and they are getting 
charter buses to bring them in and out of Virginia, and trying 
to make this into a larger event.
    The Chairman. Well, I support the Postal Service, but we 
were here first. [Laughter.]
    We did get a couple of calls from people upset that they 
could not ride their horses in the procession. The Park Service 
apparently has said no to that.
    Mr. West. Yes.
    The Chairman. Or did the museum say no to that?
    Mr. West. We both did. Let me explain exactly why we did 
that. There are two reasons. First, is a human safety 
consideration. We expect anywhere between 5,000 and 30,000 
people in the procession itself.
    The Chairman. Children too?
    Mr. West. Children, too, old people, people who cannot move 
quickly getting out of the way of 1,500 pound animals. So we 
wanted to avoid any risk in that way.
    The other thing I would say, and I say this speaking as a 
good Cheyenne and a Plains Indian myself, I did not want to be 
too hyper-ethnocentric from the Plains Indian standpoint. The 
fact is that there are many Native people from Latin America 
who will be joining us who would love to have brought their 
llamas. We did not permit that because they are animals that 
can create difficulties, too. So we just wanted to kind of even 
the playing field, if you will. I have heard from a couple of 
our good friends in Indian country out in the Plains country 
about this, but that is the position that has been taken by 
both the museum and the Park Service. We will explain that more 
fully on the Web site at a certain point in time.
    The Chairman. They will still have a great time.
    Senator Inouye alluded to the remains problem we have had 
years ago. In the authorizing bill, I remember it was one of 
the things I worked on that required the Smithsonian to start 
the process of returning skeletal remains to tribes. The old 
macabre joke among Indian country was there are more dead 
Indians in Washington than live ones for a long time before we 
passed that legislation. What is the number that the 
Smithsonian has finally reinterred so far or returned to 
tribes?
    Mr. West. I can certainly speak for the National Museum of 
the American Indian. We had when we finally completed the 
inventories, about 500 human remains. Those are not full sets 
of human remains, but that includes something like the digital 
part of a finger. The vast majority of those remains have been 
deaccessioned already and are on their way to being returned.
    We originally had hoped to wrap up the return of human 
remains by the time we opened the Mall building. We will 
probably fall slightly short of that, but it is in process and 
is well along the way. I cannot speak definitively for the 
National Museum of Natural History, our sister institution at 
the Smithsonian, but I do know that at least by last count, 
they had returned some 4,000 to 5,000 of the 18,000 human 
remains that they had initially. They also have made 
considerable progress. They had many more to contend with than 
the National Museum of the American Indian.
    The Chairman. I understand some are so ancient that nobody 
can track where they came from.
    Mr. West. That is one of the difficulties.
    The Chairman. Sure.
    Senator Murkowski, did you have some questions of Mr. West 
or Jackie?
    Senator Murkowski. Thank you and welcome. I, too, 
appreciate the enthusiasm with which you reported to the 
committee this morning.
    Mr. West. Thank you, Senator.
    Senator Murkowski. It is going to be a very exciting event 
and we are looking forward to it. I have to assume from your 
comments that dog teams are also not welcome. [Laughter.]
    Mr. West. Reluctantly so, Senator.
    Senator Murkowski. Okay. Just in case we had any inquiries, 
I don't think we had.
    Mr. West. Okay.
    Senator Murkowski. Just a couple of very brief questions. 
In Alaska just recently, on February 16, we celebrated or 
observed Elizabeth Peratrovich Day which is in honor of Tlingit 
woman who really inspired I believe it was one of our Nation's 
first anti-discrimination laws, a very inspirational and 
motivational person in Alaska's history. I am wondering if the 
museum is planning on addressing the civil rights struggle of 
our first Americans and whether you would consider including 
Elizabeth Peratrovich's contribution to the achievement of 
equal rights for our first peoples.
    Mr. West. She certainly made, as you point out, significant 
contributions to arguing for the civil rights of the first 
citizens of this hemisphere. We recognize this and I am well 
aware of her contribution in this specific regard.
    As far as what the museum itself is doing as of opening 
day, there are various parts of the three inaugural permanent 
installations, the exhibitions that speak to the very issues 
that you are talking about. One of the exhibits in particular, 
which I think addresses these kinds of concerns and what has 
happened as a matter of history and for that matter, as a 
matter of the present, because some of these issues continue, 
as you know, is the exhibit ``Our Peoples,'' which is one of 
those three inaugural exhibitions.
    This is an effort on the part of the museum and our Native 
community collaborators to address some of those questions of 
Native history as told from a Native standpoint. In the course 
of that discussion, setting up that dialog, a number of the 
very kinds of civil rights questions come up that you were 
referring to. They are an important part, I think, of the 
Native community historical experience and I think that they 
need to be addressed respectfully and head-on. We plan to do 
that.
    We also want to show through our presentations of the 
contemporary life of Native peoples, how we have continued to 
address those issues as the very person you are talking about 
did so successfully in her own efforts. I would think that in 
the course of discussions the surround those kinds of 
installations and programs at the National Museum of the 
American Indian there will be ample opportunity to discuss the 
specific example that you raise.
    Senator Murkowski. We will look forward to that.
    I do not know whether this is something that is already in 
the works, but Alaska and Washington, DC are a long ways apart 
and I am reminded of that every week as I come back to work. 
Understanding that we would like to get as many of our Alaskans 
to the new museum as possible to view it, but the reality is 
such that you will not be able to. Will there be any 
interactive way that Alaskan can see what is going on in the 
museum without actually having to come to Washington, DC?
    Mr. West. Absolutely there will be. It brings me to that 
component of the National Museum of the American Indian that 
probably is the component that brought me here in the first 
place. Had I not been confident that the National Museum of the 
American Indian would be able to introduce these kinds of 
connections that you refer to, I do not think I would be 
sitting here right now.
    That is that part of the museum that we have referred to 
historically as the fourth museum of the National Museum of the 
American Indian. ``Fourth'' because we are talking about it in 
addition to the three physical facilities that we have, one in 
New York and two here in Washington, DC. I realized exactly 
what you say, which is to say that only a small fraction of the 
Native peoples of the United States, let alone this hemisphere, 
will ever set foot in any of our magnificent facilities in New 
York or in Washington, DC. So we had to figure out ways to 
bring the museum to them where they are, rather than expecting 
them to come to the museum.
    That is what the fourth museum is all about. It is really a 
collective of programs, if you will, of the National Museum of 
the American Indian. Let me describe it just briefly so that 
you have a picture of it. Some of the ways of reaching out are 
purely conventional as far as museum practice goes, loaning 
objects, traveling exhibitions. But some of them take advantage 
of 21st century technology, such as the Internet and virtual 
connections.
    We have actually already experimented with those in 
connection with Alaska in particular, because that is probably 
as far as the United goes, the most remote location for Native 
peoples. What we did was in connection with an exhibition, 
which we had gotten from the Anchorage Museum of Art and 
History, which was the Y'upik mask show, and I remember you 
husband was up there to see that show, not your husband, 
Senator Murkowski, the first Senator Murkowski was up there. We 
were able at that time to establish through our website a 
linkage between a number of Y'upik elders who were actually 
visiting that show and school children in Alaska. It was 
interactive and in real time.
    That, I think, bespeaks the potential for this kind of 
connection, which is to say it is a way of bringing the 
resources of the National Museum of the American Indian to 
Native communities. The reason that we believe that is so 
important is because we understand at the NMAI that Native 
cultures are maintained and sustained and protected at the 
community level, not here in Washington, DC or New York.
    Senator Murkowski. Great. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Maybe one last question, or maybe two. There 
is a support group that people can pay a nominal fee, whatever 
it is, $10 a month or something like that, and belong to a 
support group for the NMAI, isn't there?
    Mr. West. There is a membership.
    The Chairman. Membership, okay.
    Mr. West. We have a membership program.
    The Chairman. Right. How many members are in that now?
    Mr. West. We have well over 50,000 members in that program 
now, and it is by some margin the largest membership program of 
any museum at the Smithsonian Institution, and has been very 
successful. Through that program, some 250,000 Americans, and 
even some of those beyond our borders, have participated in 
supporting the National Museum of the American Indian. From the 
membership program alone, we have netted some $15 million to 
$20 million that went to the construction fund, which helped 
build the building on the National Mall. So it is a very 
important component of our efforts, which we realize we must 
always pursue to raise private funds to supplement and amplify 
those appropriations that we get from the Congress.
    The Chairman. Yes.
    Yes; Jackie.
    Ms. Johnson. Could I add to that just for 1 second. If you 
go to the website to order your tickets, you can also join your 
membership right there for $100. We are really encouraging 
folks when they order their tickets to also join that 
membership.
    The Chairman. The largest single donor was still the 
Pequots.
    Mr. West. There are three who are tied for that honor. They 
were the first of the largest single donors.
    The Chairman. Who were the three?
    Mr. West. The three tribes are pledged $10 million to the 
National Museum of the American Indian: the Mashentucket 
Pequots, as you point out, were the first; the Mohegans of 
Connecticut were the second; and the Oneidas in New York were 
the third.
    The Chairman. That is wonderful.
    Thank you. I have no further questions. If there are any 
further ones from the committee, we may send them in and have 
them answered in writing.
    Mr. West. That is fine. We will be happy to submit 
anything.
    The Chairman. Thank you for appearing today. We will keep 
the record open for 2 weeks if there are any further comments.
    The hearing is adjourned.
    [Whereupon, at 10:35 a.m. the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii, Vice 
                 Chairman, Committee on Indian Affairs

    Mr. Chairman, I have a prepared statement that I would like to have 
included in the record, but in the interest of time, I would like to 
say just a few words this morning.
    The journey that has led us here today has been a long one--it 
began 17 years ago in February 1987, when this committee held a hearing 
on a bill that was the precursor to the Native American Graves 
Protection and Repatriation Act.
    At that hearing, the Secretary of the Smithsonian Institution 
testified that our great national museum was in possession of over 
18,500 human remains of American Indians, Alaska Natives, and Native 
Hawaiians.
    That testimony served as the impetus to establish a memorial on the 
National Mall that might serve as a final resting place for those 
remains that could not be identified as being associated with a 
particular tribe or Native community, and thus returned.
    Not long thereafter, I was invited to tour the Museum of the 
American Indian, Heye Foundation, in New York, and it was there I first 
saw the vast collection of Native art and artifacts gathered from 
Native communities in North, Central and South America, and the idea of 
establishing not only a memorial but a national museum to honor the 
contributions of the Native peoples of this continent was borne.
    Although I have to leave to participate in a hearing of the Defense 
appropriations subcommittee, I wanted to take this time today to 
commend the Director of the National Museum of the American Indian, 
Rick West, for all that he has done to shepherd the evolution of this 
museum from vision to reality.
    On September 21, 2004, we will celebrate the opening of the 
National Museum of the American Indian. I am told that there will be a 
grand procession of Native peoples from all of the Americas--proceeding 
from the Washington Monument to the base of the Capitol, and then to 
the National Museum of the American Indian--the building that will 
forever stand as a symbol of the magnificence of the Native peoples of 
the Americas--the First Americans.
                                 ______
                                 

Prepared Statement of Jacqueline Johnson, Executive Director, National 
                      Congress of American Indians

    Gunalcheesh. Good morning Chairman Campbell, Vice Chairman Inouye, 
and distinguished Committee Members. My name is Jacqueline Johnson, and 
I serve as the Executive Director of the National Congress of American 
Indians (NCAI). On behalf of the National Congress of American Indians 
(NCAI) and its more than 250-member tribal nations, I am pleased to 
have the opportunity to present testimony on the completion of the 
National Museum of the American Indian. Thank you for affording me the 
opportunity to represent our member nations and express our tremendous 
excitement as the Museum nears completion.
    As the oldest and largest national organization of American Indian 
and Alaska Native tribal governments, NCAI is very proud to be able to 
work with the Museum on this historical event that will impact not only 
Indian Country, but the public at large who will be afforded the 
opportunity to develop a deeper understanding of the rich cultural 
fabric of this Nation's native people through the NMAI's exhibits and 
programs. We offer our deepest thanks to this committee for its 
instrumental role in bringing this important effort to fruition.
    NCAI has had the honor of working closely with the staff of the 
Museum. The member tribes of NCAI and the NCAI Executive Board are very 
excited about the opportunity the Museum will present to broaden public 
understanding of the influence American Indian and Alaska Native 
cultures have on our Nation as a whole, and the continuum of cultures 
that continue to thrive in contemporary Native America.
    NCAI is looking forward to the week of the opening, and we have 
worked in conjunction with the staff of the NMAI to do consultation and 
outreach to all tribal governments. NCAI has hosted open working 
sessions during our Annual and Executive Council meetings to ensure 
that tribes are informed about the activities planned and are able to 
provide their ideas and input. We plan to hold another informational 
session at our Mid-Year meeting this June in Uncasville, CN at the 
Mohegan Sun facilities. NCAI has met with the NMAI staff throughout the 
past 2 years to provide input in the planning process for the opening 
events, and sits, on the Steering Committee that is supervising all of 
the activities being planned for this momentous occasion.
    In advance of the grand opening, NCAI will be hosting several 
educational forums at the National Press Club and other venues in 
Washington, DC to raise the awareness of the general public about the 
contributions American Indians and Alaska Natives have made to this 
country, as well as to educate the public on the issues facing tribes 
today. Specifically, the first forum will focus on our past history and 
our contributions to this country and the second forum will discuss our 
contemporary issues and our identity as tribal governments in this 
country. We feel it is important for the general public to see the 
reality of tribal nations as the thriving governments and successful 
communities with flourishing cultures and traditions--not just in the 
light of romanticized notions of Indians from movies or books. NCAI has 
also been advising the National Geographic as they prepare a special 
edition of their publication in anticipation of the opening of the 
Museum. NCAI supports the opening of the Museum and their efforts to 
celebrate the vibrancy and longevity of over 560 distinct and beautiful 
Native cultures as well as the Museum's intentions to dispel the 
stereotypical images of a single pan-Native culture.
    During the week of the Grand Opening, NCAI and the American Indian 
Society will be hosting a cultural exchange for all of the tribal 
groups that will be in town. This cultural exchange will include 
sharing of tribal dances, songs, and other traditions by Native people. 
NCAI is working to get the word out about NMAI opening events to ensure 
that all tribes have the opportunity to celebrate this historic 
opening. Since there are so many requests from groups wanting to do 
events around this country, NCAI is requesting that organizations and 
groups notify us of the planned activity so we may add it to our 
national calendar and prevent overlapping of activities when possible.
    In addition, NCAI will host several forums and briefings on Capitol 
Hill related to the legislative priorities of Indian Country. NCAI 
requests that the Senate Committee on Indian Affairs works with us on 
the planning of these forums and briefings to ensure that the Native 
voice will be heard on the Hill during that week.
    NCAI would like to once again express its support for the National 
Museum of the American Indian, and thank the Senate Committee on Indian 
Affairs for holding this oversight hearing and for its extraordinary 
efforts to pave the way for this historic recognition of the American 
Indian and Alaska Native tribes of this Nation.
                                 ______
                                 

 Prepared Statement of W. Rick West, Jr., Director, National Museum of 
                          the American Indian

    Mr. Chairman, Senator Inouye, and members of the committee, I am 
pleased and honored to be with you today to mark an occasion of great 
importance to the Smithsonian Institution's National Museum of the 
American Indian, to the tens of millions of Native people throughout 
the Americas, and to the citizens of this great Nation--namely, the day 
on which, after 1 decade of planning, development, and construction, 
the staff of the Museum are moving into our centerpiece building 
located at the very head of America's National Mall and the national 
capital's monumental core. This memorable occasion signifies the 
commencement of the 9-month period leading to an even more important 
date--September 21, 2004--when the National Museum of the American 
Indian will open to the millions of people who will visit annually.
    First, I would like to tell you briefly about the origins of this 
hemispheric institution of living Native cultures and peoples. Second, 
I want to describe what visitors will see and experience in this 
uniquely Native place. Finally, beyond its impressive architecture and 
physical presence, I want you to understand, as best I can communicate 
it, the philosophy and spirit that always have shaped and driven, and, 
indeed, are the National Museum of the American Indian.
    The origins of this 21st century cultural institution are grounded 
in the most remarkable assemblage of the cultural patrimony of the 
first citizens of the Americas, coupled with enlightened and farsighted 
political and public action and support. The collections of the Museum 
are, in many important respects, without compare, encompassing some 
800,000 objects that stretch geographically from Tierra del Fuego in 
South America to the Arctic Circle in North America, and covering some 
10,000 years in time--little wonder that, a decade and half ago, both 
the Congress of the United States and the Smithsonian embraced the idea 
that ours was a national collection that should sit within America's 
preeminent national cultural institution. Authorized by a Democratic 
Congress, with the authorizing legislation signed by a Republican 
President, and supported by more than 250,000 members of the American 
and international public since its founding, the National Museum of the 
American Indian always has represented a seminal cultural initiative 
that utterly transcends conventional political, cultural, and 
geographic boundaries.
    Its complicated, and sometimes even challenging, journey of 
creation began with the opening of the George Gustav Heye Center in 
1994. Our Cultural Resources Center, a state-of-the-art research and 
study center, and home to our collections, located just outside of 
Washington, DC, opened in 1999. Our journey will culminate, as it 
should, with a powerfully symbolic Native presence on the National Mall 
that opens on September 21, 2004.
    And what a very special day--for everyone--September 21, 2004 will 
be. I know that it will be not only a good day, but also a beautiful 
day--no late September hurricanes will be permitted this coming fall. 
That moment in the history of the National Museum of the American 
Indian will begin as thousands of Native people, many of them in the 
resplendent regalia that marks their communities, and their non-Native 
friends and supporters move together, in procession, down the National 
Mall, beginning at the Smithsonian's key icon, the ``Castle,'' to a 
ceremonial place of commemoration and dedication located at the foot of 
the Capitol Building just across the street from the Museum itself. 
Following a brief opening ceremony, and I personally promise it will be 
that, the thousands of well-wishers and celebrants, Native and non-
Native alike, will proceed to the Museum itself.
    Their first introduction to this Native place will occur as they 
step onto the very site itself Far beyond conventional notions of 
landscape architecture, the ecoenvironment that surrounds the building 
will mark it as a different destination. Greeted by ``Grandfather 
rocks,'' walking beside a tumbling stream from the time they enter the 
site until they reach the building entrance on the east, passing by 
hundreds of plantings carefully selected to evoke that site in all its 
pre-contact natural wonder, visitors will pass through a generous and 
welcoming portal to the building itself.
    Inside and once past the interior welcoming areas, they will find 
themselves in the captivating and perhaps defining space of the 
building--the Potomac. This atrium, which soars some five museum 
stories high, the full height of the building, welcomes and even 
encourages, through its ample windows, visual connections between the 
building and its environmental surround. It is a central gathering 
space for the building, the home for varied public programs of dance, 
music, other performance art, and demonstration that confirm not only 
the deep, rich, and varied cultural past of the Native peoples of the 
Americas, but also, and as important, their cultural 
contemporaneousness as cultural phenomena of the present and not just 
the past.
    Beyond the Potomac and in the principal galleries of the Museum, 
visitors will see three inaugural permanent exhibitions that reflect 
its fundamental belief that Native peoples themselves can speak with 
knowledge and authenticity about the objects they have created through 
the millennia, as well as the ideas and philosophies that motivated 
their creation. In developing these installations, we collaborated with 
some 2-dozen Native communities from throughout the Western Hemisphere 
that selected objects from our collections and interpreted them within 
the framework of the major exhibition themes.
    Those themes, also based on extensive consultations with Native 
communities and others from throughout the Americas, encompass, in many 
ways, the wholeness of Native life. The first exhibition, entitled 
``Our Universes,'' addresses Native philosophy and cosmology, what 
makes us think and live the way we have in the past and do now, the 
fundamental underpinnings of our existence through time and space. The 
second installation, ``Our Peoples,'' represents a seminal opportunity 
for Native communities, and the objects they have selected for the 
exhibition, to speak directly to those events considered central to 
their histories. Finally, in confirmation of the fact that tens of 
millions of Native peoples are still among us in the Americas--right 
now--the third exhibition, ``Our Lives,'' looks to the evolution, 
through time and up to the present, of the individual and communal 
identities of these first citizens of the Western Hemisphere.
    In addition to all that goes on inside this Native place on the 
National Mall, the opening of the National Museum of the American 
Indian will include, for almost the entire week following September 21, 
2004, ``The First Americans Festival,'' to expand and enhance further 
our visitors' knowledge and views of Native America, past and present. 
A memorable combination of music, dance, song, theater, symposia, and 
seminars, the Festival will sit physically on the National Mall between 
the Capitol Building of the Nation on the east and the Washington 
Monument on the west--surely a most remarkable and welcoming act of 
cultural sharing by those who were here with those who came.
    Finally, I want to give you a sense of the philosophy, the 
sensibilities, and the spirit that sit behind, that ground all that I 
have said about the National Museum of the American Indian, its 
imposing physical structures, and its ambitious exhibitions and public 
programs. I do so because this sense is absolutely essential to a real 
understanding of the true meaning and significance of September 21, 
2004.
    The National Museum of the American Indian, indeed, does represent 
the long overdue and entirely appropriate recognition and affirmation 
of the vast cultural contributions that Native peoples and communities 
have made and continue to make to all that we define as 
``civilization.'' A case can be made that Native America, as the 
originating element of American heritage, should have been among the 
first to be acknowledged with a museum on the National Mall--and yet we 
arrived last. But in an illuminating act of great symbolism, we now 
occupy the first or keystone place in America's monumental core, 
sitting as we do at the very foot of the national Capitol Building and 
directly across from what many consider to be the apex, the apotheosis 
of western civilization, the East Wing of the National Gallery--a 
placement, at long last, between equals in the political and cultural 
heart of America. This circling back of American history on itself to a 
new point of affirmation and resolution is not only completely right--
for me it comes as close to pure historical poetry as I could ever 
imagine.
    The National Museum of the American Indian, however, does not stop 
here, worthy as this aspiration and goal are--it is much more. This 
international institution of living Native cultures and communities 
represents, ultimately, a pivotal meeting ground, a significant 
historical opportunity for the Native and non-Native worlds to achieve 
a profoundly important cultural understanding and reconciliation that 
has eluded American history from its beginning. That understanding and 
reconciliation are grounded not only in recognition of the legitimate 
place of Native peoples in the histories of the Americas, but also in 
an appreciation, on the part of both Natives and non-Natives, that all 
of us share a common humanity that transcends ethnic and cultural 
differences at the same it recognizes and embraces them.
    No person has described better what the Smithsonian's 21st century 
National Museum of the American Indian is all about. Through it, tens 
of thousands of years of Native culture, experience, history, and 
worthiness are redeemed by this Native place that sits in the heart of 
the Nation. Through that redemption, the Museum creates an 
unprecedented and remarkable opportunity for mutual understanding and 
cultural reconciliation that provides a marker for the ages. The 
Smithsonian Institution's National Museum of the American Indian: 
Cultural redemption and reconciliation in the 21st century.
    Now I would like to briefly touch on our fiscal year 2005 budget 
request. Fiscal Year 2005 will be the first full operational year for 
the National Museum of the American Indian on the Mall. Just days from 
our official opening on September 21 of this year, the new fiscal year 
will start. Our request for increases for the 2005 appropriations cycle 
are key to the provision of full programmatic and operational needs of 
the last museum opening on the Nation's Mall. This request reflects 
specific needs to address the new aspects of our operations directly 
related to the public attendance at the museum.
    Therefore, we are asking the Congress for authority to increase our 
FTE by 7 and our base operating budget by $1.102M (including $602K for 
one time costs and $500K, mostly for salaries and benefits.) One time 
costs are for technology support and visitor services opening needs. 
The remainder is for salaries and benefits for 7 new positions, mainly 
in the public programs area. In addition we have requested authority to 
redirect previous one time money in the amount of $2.536M and 27 FTE to 
become a part of our base in order to support various needs of the Mall 
Museum operation.
    The fiscal year 2005 request also reflects a programmatic decrease 
of $700K and 9FIEs for development staff and a decrease of $6.843M for 
one time costs associated with the opening of the Mall Museum. This 
estimate also reflects restoring the fiscal year 2004 rescissions 
($477K).
    Although these needs are reflected elsewhere in the Smithsonian 
Institution budget, the opening of the NMAI will put a severe strain on 
the Institution's security and facilities operations budgets. I 
anticipate very large numbers of visitors to the Museum that will 
demand increased levels of security consistent with a heavily visited 
Museum at the foot of the Congress and that will also require increased 
facilities support to maintain the building as large crowds gain 
access.
    Thank you for the opportunity to present testimony before this 
committee, I would be glad to answer any questions you may have.


</pre></body></html>
